No.
October Term, 2020
In the

Supreme Court of the United States
Dennis K. Kieren, Jr.,
Petitioners,
v.
The State of Nevada, Attorney General et al.,
Respondents.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
Certificate of Service
Rene L. Valladares
Federal Public Defender of Nevada
*Lori C. Teicher
First Assistant Federal Public Defender
Lori_Teicher@fd.org
411 E. Bonneville Ave., Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
Attorney for Petitioners
*Counsel of Record

I, Lori C. Teicher, an attorney who is authorized to file a Petition
for Writ of Certiorari on behalf of Dennis Kieren, hereby certify that all
parties required to be served have been served on this 5th day of August
2020, in accordance with Rule 28.4(a), one copy of the foregoing Petition
for Writ of Certiorari, Appendix, and Motion for Leave to Proceed In
Forma Pauperis by delivering said copy to a third party commercial
carrier for delivery, to Allison Herr, Deputy Attorney General, 555. E.
Washington, Las Vegas, NV 89101, counsel for the Respondent herein. I
further certify that in accordance with Rule 29.3, an electronic version
of the foregoing was also served.

/s/ Lori C. Teicher
Lori C. Teicher
First Assistant Federal Public Defender
411 E. Bonneville Ave., Ste. 250
Las Vegas, NV 89101
(702) 388-6577
Lori_Teicher@fd.org

